No-19-703

In the Supreme Court of the United States
BARBARA NINA DAVIS,
v.

Petitioner,

MTGLQ INVESTORS, LP,
Respondent.
On Writ of Certiorari to the District Court of Appeal
for the State of Florida, Fourth District
PETITION FOR REHEARING

JOHN J. ANASTASIO
Counsel of Record
Suite 203
3601 South East Ocean
Blvd. Stuart, Florida 34996
(772) 286-3336
ESERVICE@PSLLAW.NET
Counsel for Petitioner

Dated March 19, 2020

1

In the Supreme Court of the United States
BARBARA NINA DAVIS,
v.

Petitioner,

MTGLQ INVESTORS, LP,
Respondent.
On Writ of Certiorari to the District Court of
Appeal for the State of Florida, Fourth District
PETITION FOR REHEARING
__________
Barbara Nina Davis under Rule 44, petitions
this court for rehearing of the denial of the petition
for writ of certiorari.
The basis for rehearing is based upon
intervening, unprecedented, circumstances of a
substantial effect, that is a substantial ground not
previously presented.
1.
With the last week’s nationwide lockdown
and the resulting economic depression from
COVID-19, it is inevitable that millions of the over
30,000,000 Fannie Mae/Freddie Mac Uniform
Mortgages, will go into default, despite the

2
stimulus package passed.
At issue is the interpretation of the notice
language in the Fannie Mae/Freddie Mac Uniform
Mortgage, used for tens of millions of mortgages in
the United States, that is a condition precedent to
bring a mortgage foreclosure action.
This case is important and worthy of this
court’s attention, because it involves the U.S. mail
and the interpretation of the notice provisions of
millions of Fannie Mae/Freddie Mac Uniform
Mortgages. And, how the millions of defaults and
resulting millions of lawsuits will be handled.
2.
This case revolves around the question: Is
there a difference between service of a required
mortgage pre-suit default notice, by United States
Postal Service category of first-class mail, and
United States Postal Service category of certified
mail return receipt requested?
3.
The undisputed facts are simple. The
respondent sent the petitioner a required presuit
notice by certified mail, return receipt requested
only. No regular first call mail service was used. It
is undisputed the petitioner never received notice.
The express purpose of the presuit notice in
section 20 of the mortgage is to provide, “a
reasonable period after the giving of such notice to

3
take corrective action.”
Section 15 of the mortgage (Record p. 943944), requires the lender give the homeowner a
default notice, prior to filing suit. Under the
mortgage, service of the notice is deemed given,
either when sent first class mail, or when actually
received, if sent by other means.
The Florida Fourth District Court of Appeal
ruled that regular first-class mail, and certified
mail return receipt requested, were the same,
despite no receipt of a notice designed to allow for
corrective action.
This ruling cannot stand, given the
undisputed massive fraud and consumer abuse that
occurred from lenders in the last mortgage
foreclosure crisis. The ruling below will invite more
fraud and abuse. And, it will frustrate the intent of
the notice, which is to provide notice so corrective
action can take place before litigation. It will
convert the notice provision from a vehicle to allow
corrective action and avoid litigation, to a weapon
to multiply and accelerate litigation.
4.
There is a presumption that regular firstclass mail reaches its recipient. This is because it
travels from postbox to mailbox uninterrupted.
Certified mail return receipt requested does

4
not go from postbox to mailbox. It goes from postbox
to the mail carrier’s hand. The mail carrier either
hands it to the recipient, or as here, leaves a slip,
not the letter with the presuit notice. In either
event, it never gets to the mailbox. That is why
under Fannie Mae/Freddie Mac Uniform Mortgage,
certified mail return receipt requested is a means
other than first class mail, requiring actual receipt.
(It should be noted that under the mortgage the
respondent lender wrote, notice to the lender is
effective only when actually received.)
CONCLUSION
To consider a default notice given by
unclaimed certified mail return receipt requested
the same as first class mail, is to make the
homeowner, “no better off than if the notice had
never been sent.”
This Court should grant the Petition for
rehearing and grant Writ of Certiorari.
Respectfully submitted,
JOHN J. ANASTASIO
Counsel of Record
Suite 203
3601 South East Ocean Boulevard
Stuart, Florida 34996
(772) 286-3336
eservice@psllaw.net

